                United States Department of the Interior
                                  Office of Inspector General
                                        Washington, D.C. 20240

                                                                                        June 16, 2004




The Honorable Frank R. Wolf
United States House of Representatives
241 Cannon Building
Washington, DC 20515

Dear Congressman Wolf:

        This is in response to your February 23, 2004 letter (copy enclosed) in which you
requested that the Office of Inspector General (OIG) conduct an investigation into the
involvement of Bureau of Indian Affairs (BIA) officials with the membership rolls of the Ione
Band of Miwok Indians. You referred to an Associated Press article (copy enclosed) that made
several allegations related to BIA officials’ involvement in a 2002 election and questionable
membership in the Miwok Tribe.

        In response to your letter, as well as a citizen complaint echoing similar allegations, the
OIG initiated an investigation into the allegations made in the Associated Press article. We
conducted interviews in Sacramento, CA, and Washington, DC, and reviewed over a thousand
documents collected from the Central California Agency (CAA) and BIA’s Regional Office.
Our investigation focused on four areas: (1) allegations that [name removed], [title removed],
was improperly involved in the 2002 tribal election; (2) allegations that the 2002 election caused
the tribal membership to swell from 70 to 535; (3) allegations that [name removed] oversaw the
election, resulting in her relatives being added to the tribal rolls; and (4) that the election favored
pro-casino tribal leadership.

Background

        Historically, two competing factions of the Ione Band of Miwok Indians have had a long-
standing dispute between two main families – one family known as the “Villa” group, headed by
Nicolas Villa Jr., and the other known as the “Burris” group, now headed by Matthew Franklin,
the Ione Band of Miwok Indians’ current elected Chairman, recognized by BIA. The dispute
between these factions stems, in part, from Nicolas Villa, Jr.’s assertion that he is the
“traditional” or “hereditary” leader of the Ione Band, although the “Villa” group removed Villa,
Jr. from his leadership position in 1995 by a vote of 13 - 0. This leadership dispute is coupled
with a present dispute over the current Band’s attempt to build a casino. This has further
polarized the two groups, with the “Villa” group voicing opposition to the casino, while the
current leadership is advancing approval of the project.
        In 1972, the BIA commissioner granted federal recognition to the Ione Band of Miwok
Indians. This recognition was later questioned by BIA senior management. BIA examined
whether this federal recognition could stand solely on the strength of the commissioner’s letter.
On March 22, 1994, BIA officially granted the Ione Band of Miwok Indians federal recognition,
reaffirming the Tribe’s 1972 status.

       Membership criteria were subsequently negotiated among BIA and the two tribal factions
between 1994 and 1996. In 1996, an interim tribal council formed, following the election of
Kathryn Ramey as the first interim tribal leader. Ramey held this position until April 2003,
when the Band elected Matthew Franklin as its Chairman.

        Our investigation also revealed sharp disagreement among community residents of
Amador County, CA, and the cities of Plymouth and Ione, CA, over the Ione Band’s proposal to
build a casino in the community.

        In short, our investigation did not uncover any evidence to support allegations of BIA
misconduct or improper influence in the Ione Band of Miwok Indians 2002 election, or that the
election was influenced by pro-casino sentiments.

[title removed], [name removed]

        Our investigation found no evidence that [name removed], BIA [title removed] took any
official action pertaining to the Ione Band; improperly advanced the membership interests of her
relatives; or violated any law, rule, regulation, or standard of ethical conduct.

        We found records to document [name removed]’s legitimate status as a Miwok Indian as
early as December 1972. Our investigation also determined that [name removed] has only two
immediate family members in the Tribe – not 68, as alleged in the article. The article did
correctly report, however, that these two family members are an uncle and a niece, both of whom
are employed with BIA.

       We also found that [name removed] had formally recused herself in March 2001 from
personal and substantial involvement as a BIA employee in matters related to the Miwok Band,
because of her membership in the tribe. The former Interim Tribal Chairperson, Kathryn Ramey,
confirmed that [name removed] had taken no official action in the affairs of the Tribe while in
her position as [title removed].

Increase in Tribal Membership Rolls

        The Tribal election, which was conducted in August of 2002, had been authorized in
March 2002 by [name removed], then BIA [title removed]. The election was an opportunity for
tribal members to adopt or reject the proposed Constitution and Tribal Resolution No. 2000-025,
which included the ratification of membership criteria that had been negotiated between BIA and
the two opposing factions of the tribe from 1994 to 1996.
       Based on these criteria, the Tribe published its first official membership roll in September
1996 consisting of 534 members. The 2002 election resulted in votes of 121 to 15 in favor of
adopting the proposed Constitution. Thus, the allegation in the Associated Press article that the
2002 election caused membership to increase from 70 to 535 is, simply, inaccurate.

BIA [title removed], [name removed]

        Our investigation also determined that [name removed], who was originally appointed as
chair of the elections committee, resigned her position as chair when certain tribal members
protested her appointment. Furthermore, our investigation found no evidence that [name
removed] was a Tribal member herself, or that she had any blood relatives in the tribe or on the
membership rolls, as alleged in the Associated Press article.

Casino Interests

        Under its present leadership, the Ione Band of Miwok Indians is attempting to build a
casino, over the objection of the “Villa” group. The casino project also has divided local
community residents of Amador County, CA, and the cities of Plymouth and Ione, CA, with
many opposed to a casino.

      While membership status has evolved over the past decade and leadership in the Ione
Band of Miwok Indians has changed three times since 1995, our investigation found no relation
between the election results in 2002 and the dispute over the casino project.

         The OIG is acutely aware of the highly charged views and high-stake interests that attend
to the issues of tribal recognition and Indian gaming. The OIG takes very seriously allegations
of improper influence and official misconduct on the part of Department of the Interior officials.
In this case, however, based on the results of our investigation, we conclude that BIA officials
with potential for conflict of interest were not involved in the elections, and that the casino issue
– while clearly contentious in its own right – did not influence the elections of the Ione Band of
Miwok Indians in 2002.

       If you have any additional questions about this matter, please do not hesitate to contact
me at (202) 208-5745.

                                              Sincerely,



                                              Earl E. Devaney
                                              Inspector General


Names were removed in accordance with FOIA exemptions 6 & 7C.
